No. 20IN THE

Supreme Court of the United States
ORLANDO CORDIA HALL,
Petitioner
v.

WILLIAM P. BARR, ATTORNEY GENERAL et al.,
Respondents.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the D.C. Circuit
Execution Date: November 19, 2020 at 6:00 PM
PETITION FOR A WRIT OF CERTIORARI
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on November 19, 2020, three (3) copies of the
PETITION FOR A WRIT OF CERTIORARI in the above-captioned case were
served, as required by U.S. Supreme Court Rule 29.5(b), on the following:
Stephen S. Gilstrap
Assistant U.S. Attorney
NORTHERN DISTRICT OF TEXAS &
SPECIAL ASSISTANT U.S. ATTORNEYS
District of Columbia
1100 Commerce Street, Third Floor
Dallas, Texas 75242-1699
Johnny H. Walker, III
Assistant U.S. Attorney
DISTRICT OF COLUMBIA
(USA) CIVIL DIVISION

555 4th Street, NW
Washington, DC 20530
Counsel for Respondents
The following email addresses have also been served electronically:
stephen.gilstrap@usdoj.gov
johnny.walker@usdoj.gov
SupremeCtBriefs@usdoj.gov
Executed on November 19, 2020.
/s/ Pieter Van Tol
Pieter Van Tol
Counsel of Record
HOGAN LOVELLS US LLP
390 Madison Avenue
New York, NY 10017
(212) 918-3000
pieter.vantol@hoganlovells.com

